c.

(gf Becker Gallagher
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 20-1793, Aura
Moody on behalf of her minor child, JM, Julian Moody
v. National Football League, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Two Day service and e-mail to the following
parties listed below, this 23rd day of August, 2021:
William Andrew Brewer III
Brewer, Attorneys & Counselors
750 Lexington Avenue, 14th Floor
New York, NY 10022
(212) 489-1400
wab@brewerattorneys.com
Counsel for Respondent
Stewart Lee Karlin
111 John Street, 22nd Floor
New York, NY 10038
Courtesy Copy per Pro Se Petitioner’s Request
Aura Moody
112-26 197th Street
Saint Albans, NY 11412
(718) 465-3725
quinone smoody@aol. com
Pro Se Petitioner

Becker Gallagher Legal Publishing Incorporated
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102
Cincinnati, Ohio 45249

1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 23, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notary Public
[seal]

333/

